Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Child Support Enforcement
     State Satisfaction Survey




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 1998
                      OEI-02-97-00310
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General and Renee C. Dunn Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Demetra Arapakos, Project Leader                        Linda Hall, Program Specialist
Jennifer Caves                                          Ann O’Connor, Program Specialist
Daniel Ginsberg




       To obtain copies of this report, please call the New York Regional Office at 212-264-1998.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To determine State child support agencies’ level of satisfaction with the Federal Office of Child
Support Enforcement and to identify opportunities to improve its services to the States.

BACKGROUND

The Federal Office of Child Support Enforcement (OCSE) requested that we survey States to
determine their experiences and satisfaction with OCSE and to identify any areas for
improvement. This survey was one of the action items identified in a recently completed national
Strategic Plan for the Child Support Enforcement Program.

The Child Support Enforcement Program was established in 1975 under Title IV-D of the Social
Security Act. The goal of this program is to ensure that children are financially supported by both
parents; it is administered at the State level and overseen Federally by OCSE. The OCSE has its
central office in Washington D.C. and 10 regional offices throughout the country.

We conducted 54 structured telephone interviews in October and November 1997 with
respondents from all 50 States, as well as the District of Columbia, Guam, Puerto Rico and the
United States Virgin Islands. In most cases, we spoke to the child support program director. We
asked respondents to differentiate their answers between the central and regional offices for most
questions. We have also selected six States for on-site visits and will present these case studies in
a separate follow-up report.

FINDINGS

Most States Are Satisfied Overall

Forty-seven States are very or somewhat satisfied with OCSE's central office, while seven are
somewhat dissatisfied. Similarly, 49 States are very or somewhat satisfied with their regional
OCSE office, with only five being somewhat dissatisfied. A majority of States say their
satisfaction with OCSE has increased over the past 2 years; 44 say it has increased with the
central office and 28 say it has increased with the regional office.

States Rate Their Recent Experiences High

States rate overall communication within the Child Support Enforcement Program high, with 44
saying it is very good or good. More specifically, three-quarters say communication with the
central office is very good or good and more than three-quarters say it is very good or good with
the regional office. Furthermore, most States (37) rate overall coordination in the program as
very good or good; at least two-thirds give this high rating to their coordination with both the
central and regional offices.



                                                  i
A majority of States also give high ratings to their most recent contacts with both the central and
regional offices, although ratings are somewhat higher for the latter. Three-quarters are satisfied
with the accessibility, availability, and responsiveness of OCSE staff, as well as with the
timeliness, helpfulness, and accuracy of the assistance they received.

Communication, coordination, and recent contacts are related to States’ overall satisfaction. As
States’ ratings of each of these decrease, States’ overall satisfaction with OCSE declines.

Additionally, nearly all States have asked OCSE for support over the past year, including help
with new and existing policies, systems, and demonstration projects. The majority (at least two-
thirds) say the help they received from OCSE was very good or good.

States Believe OCSE Works With Them As Partners

Half of the States believe the Child Support Enforcement Program is a true Federal/State
partnership most of the time, and another quarter say it is a partnership some of the time. They
say the increased emphasis on Federal and State partnership has greatly improved the program.
Also, States believe the central office provides strong program expertise and leadership.

Some Regional Offices Are Rated Higher Than Others

While States rate some regional offices high, others receive mixed ratings. States which are more
satisfied with their regional office value the State-specific support and commitment they get from
these offices. On the other hand, States which are less satisfied with their regional office say they
receive limited support, or that communication and coordination are weak.

States Offer Specific Suggestions For Improving Their Relationship With OCSE

States offer several suggestions which would increase their satisfaction with OCSE. Perhaps
most importantly, many States say OCSE should improve the timeliness of communication with
them. They also believe OCSE should strengthen the regional office role to give them stronger
program support; some say this role is not adequately defined, and others believe the regions lack
authority. Other States say communication with States further away from the central office can
be improved. States would also like OCSE to provide more systems support, training and
practical support, including enhanced appreciation of their problems with new child support
initiatives and more detailed advice on how to implement regulations. Finally, States suggest
continued improvement of the audit process and a more timely Annual Report to Congress.

CONCLUSION

Overall, this report shows that States give OCSE high marks for its performance, particularly in
recent years. But opportunities to improve remain, and the office should consider the suggestions
cited by States to further improve its performance. By adopting a philosophy of customer service,
OCSE has not only enhanced its support to the States, but also enriched the program as a whole.

COMMENTS

                                                  ii
We received comments on the draft report from the Administration for Children and Families
(ACF) and the Assistant Secretary for Management and Budget (ASMB). The ACF believes the
States’ suggestions are pertinent and noted some of its efforts to work with the States to address
them. Some parts of the report were modified in response to ASMB’s technical comments.

The full comments are presented in Appendix B.




                                                iii
                              TABLE OF CONTENTS


                                                                                                                                PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


!Most States Satisfied Overall . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


!States Rate Recent Experiences High . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


!States Believe OCSE Works With Them As Partners . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


!Some Regional Offices Rated Higher Than Others . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


!States Offer Suggestions For Improving Relationship With OCSE . . . . . . . . . . . . . . . . . . . . . 11



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14



APPENDICES


A: Regional Office Index . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

                              INTRODUCTION

PURPOSE

To determine State child support agencies’ level of satisfaction with the Federal Office of Child
Support Enforcement and to identify opportunities to improve its service to the States.

BACKGROUND

The Federal Office of Child Support Enforcement (OCSE) requested that we survey States to
determine their experiences and satisfaction with OCSE and to identify any areas for
improvement. This survey was one of the action items identified in a recently completed national
Strategic Plan for the Child Support Enforcement Program.

Child Support Enforcement Program

The Child Support Enforcement Program was established in 1975 under Title IV-D of the Social
Security Act. The goal of this program is to ensure that children, from both Temporary
Assistance for Needy Families (TANF) and non-TANF families, are financially supported by both
parents. The major services provided by the program include: 1) locating noncustodial parents; 2)
establishing paternity; 3) establishing child support obligations; and 4) enforcing child support
orders.

The Child Support Enforcement Program is administered at the State level and is overseen
Federally by OCSE. One of OCSE's primary roles is to fund, evaluate, and provide technical
assistance to the States. The OCSE also sets program standards and policy, and provides
guidance to States in implementing that policy. Additionally, it provides support for automated
systems, research and demonstration projects, and operations.

The OCSE has a central office in Washington D.C. and 10 regional offices throughout the
country. Each of these regional offices has a regional child support program manager who
oversees a staff of child support enforcement program specialists. The structure and size of each
regional office varies from region to region.

Although State agencies have considerable autonomy in administering services, Federal
regulations specify minimum standards of program operation. In addition to providing the four
major services listed above, States must also have procedures in place to maintain case records,
establish medical support orders, withhold wages and taxes, and modify support orders. Federal
regulations further require that these services be carried out in a timely manner.

The program has been growing since its inception. In fiscal year 1993, the program's caseload
consisted of approximately 17 million cases, and almost 9 billion dollars in child support was
collected. By 1995, the caseload had increased to over 19 million cases; monetary collections
were up to 10.8 billion dollars.


                                         )))))))))))
                                              1
Recently, the OCSE worked with its State partners to develop a Strategic Plan for Fiscal Years
1995-1999. The plan emphasizes both the coordination of service delivery systems and the
forging of new partnerships at all levels to make the Child Support Enforcement Program more
results-oriented and responsive to customers.

Welfare Reform

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public Law 104-
193 welfare reform) contains comprehensive child support enforcement provisions. Welfare
reform legislation requires that each State do the following:

       !       participate in a national new hire reporting system;

       !       develop a streamlined system for establishing paternity;

       !       adopt a uniform interstate child support law;

       !       establish computerized statewide collections;

       !       exercise tougher penalties for nonpayment; 

       !       follow a "families first" policy; and

       !       create access and visitation programs.


Welfare reform legislation also proposes the establishment of a performance-based incentive
funding system for the States. The Department’s proposal recommends that State programs be
evaluated on five key performance areas: paternity establishment; support order establishment;
collection of current support; collection of arrearages; and cost effectiveness. Each State would
be paid an incentive based on its score on these measures. This new system would replace the
current one, which provides an incentive payment to all States based on the ratio of child support
dollars collected to program dollars expended. The existing system had been criticized for being
an inaccurate measure of State performance.

Other OIG Work

The Office of Inspector General (OIG) has completed several studies of the Child Support
Enforcement Program over the past several years. These have included reports on paternity
establishment, income tax reductions, and State data systems. The latter, finalized in December
1996, identified obstacles States faced in automating their data systems, such as inadequate
technology and problems with contractors.

METHODOLOGY

We conducted 54 structured telephone interviews in October and November 1997 with
respondents from all 50 States, as well as the District of Columbia, Guam, Puerto Rico, and the
United States Virgin Islands. In reporting our findings, we also refer to the latter four as “States.”

We spoke to the child support program director in 47 of the 54 States; in 7 States where we did
not interview the director, they declined mostly because they were new to their position and did
not feel they had enough experience to respond to our questions. In these cases, they designated


                                          )))))))))))
                                               2
an experienced manager as the lead respondent. For 26 States, we had multiple respondents,
often a deputy director, policy specialist, systems specialist, or attorney, in addition to the
director. In the remaining 28 States, we interviewed just one individual.

In our interviews, we asked respondents questions about communication, coordination, and
satisfaction with OCSE. We did not provide respondents with a common definition of OCSE’s
role, but instead asked States about their own understanding and expectations. We also asked
more specific questions on various child support initiatives, Federal audits, the strategic plan, and
the Annual Report to Congress. For most questions, respondents were asked to differentiate their
answers between the central and regional offices.

We also constructed a regional office index using data from the State interviews. This index was
based on three variables - States’ overall satisfaction with their regional office, States' rating of
communication with their region, and States' rating of coordination with their region. We gave
each variable a subscore which were then combined to give a total score for each region. This
index is explained in greater detail in Appendix A.

Finally, we selected 6 States for on-site visits: Colorado, Massachusetts, Minnesota, New York,
South Carolina and Texas. These case studies will be presented in a separate follow-up report.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                          )))))))))))
                                               3
                                       FINDINGS
MOST STATES ARE SATISFIED OVERALL

States are satisfied overall with both the central and regional OCSE offices. See Graph A below.
Forty-seven States are very or somewhat satisfied with the central office. Of these 47 States, 16
are very satisfied and 31 are somewhat satisfied. Another seven States are somewhat dissatisfied
with the central office, and none are very dissatisfied.

Similar to their rating of the central office, a large majority of States are also satisfied overall with
their regional office. Forty-nine States are very or somewhat satisfied with their region; of the 49,
28 are very satisfied and 21 are somewhat satisfied. Another five States are somewhat dissatisfied
with their region, while no State is very dissatisfied.

                                                Graph A
                         Satisfaction With Central And Regional Offices

                 Central Office


                              16




                31                 7




              Very Satisfied
              Somewhat Satisfied
              Somewhat Dissatisfied




                                            )))))))))))
                                                 4
As illustrated in Graph A, the intensity of satisfaction differs between the central and regional
offices. This difference carries over in some of our other data, as can be seen in Tables A and B.

Our analysis also reveals minor differences in overall satisfaction based on State caseload size,
program structure and administrative position of the child support program.

States' satisfaction with OCSE has increased over the past two years. Forty-four States say their
level of satisfaction with the central office has increased, six say it has remained the same, and 4
say it has decreased. Additionally, 28 States say their satisfaction with their regional office has
increased over the past two years, 20 say it has remained the same (almost all of whom say they
are just as satisfied), and 5 say it has decreased. The remaining State did not have an opinion.

STATES RATE THEIR RECENT EXPERIENCES HIGH

Communication

States rate overall communication within the Child Support Enforcement Program high, with 44
saying it is very good or good. Nine say it is average, and one says it is poor. Table A below
shows States' satisfaction with communication with both the central and regional offices.


                                              Table A
                                    Rating of Communication


                      Very Good       Good      Average       Poor     Very Poor Don’t Know
 Central Office             20          19         11           2            0              2
 Regional Office            32          14          8           0            0              0


At least 49 States describe the communication they get from the central office as very or
somewhat helpful, clear, or accurate; fewer (42), however, rate the communication as timely. At
least 48 States say their communication with the regional office is very or somewhat helpful, clear
or timely; all States say it is accurate.

States say they rate communication high because OCSE is willing to listen to them, is responsive
to their requests and concerns, and is available to help them when needed. They also say their
good working relationship with OCSE staff makes communication good. Furthermore, many
States believe communication in the Child Support Enforcement Program has improved over the
past several years. On the other hand, States more dissatisfied with their communication cite a
lack of timeliness and detail, too much bureaucracy, and insufficient program knowledge as
reasons for their dissatisfaction.




                                          )))))))))))
                                               5
States' rating of communication is related to their overall satisfaction. See Graph B below.

                                              Graph B
      States’ Overall Satisfaction Declines as Their Communication Rating Decreases




Most State communication with OCSE is for policy-related issues. Forty-five States cite this as a
reason for their most recent contact with the central office and 39 say this is a reason for their
most recent contact with the regional office. In fact, about half of the States say program policy
is the main topic of their discussions with both the central and regional offices. Other reasons for
contacting the central office include systems, workgroups, and funding issues. Other reasons
States contact the regional office include case specific support, regional meetings, technical
assistance, and reporting. Most States (42) communicate more with their regional office than
with the central office. Forty-five States are in contact with their region on a daily or weekly
basis, compared to only 22 States who interact with the central office that frequently.

States report that subject matter should dictate the form of communication. They believe that
written documents are most useful to communicate policy and legislative matters, and that
conference calls are helpful when State discussion and input is needed or when discussing
regulations. Additionally, States say individual calls are most useful for case specific questions.
States also find e-mail, in-person visits, and the IV-D link helpful.

Coordination

State satisfaction with coordination (State and Federal efforts to work together), while high, is
not as high as it is with communication. Most (37) say overall coordination within the program is


                                          )))))))))))
                                               6
very good or good. Another 15 say it is average, while one State rates coordination as poor.
Table B below gives the coordination satisfaction ratings of States with both the central and
regional offices.

                                                Table B
                                     Rating of Coordination


                          Very         Good       Average         Poor        Very     Don’t Other
                          Good                                                Poor     Know
  Central Office            10           24           15            3           0       2      0
  Regional Office           26           12           12            1           0       1      2

States explain their high ratings of coordination by pointing out their partnership with OCSE.
They also say that coordination has improved due mostly to the willingness of OCSE to work
together with them to achieve common goals. Other States, however, cite the difficulty in
coordinating all the different players in the Child Support Enforcement Program and the lack of
coordination between these different players as reasons why coordination is not strong.

Graph C below shows how States' assessment of coordination is related to their overall
satisfaction.

                                                Graph C
       States’ Overall Satisfaction Declines as Their Coordination Rating Decreases




                          *No States rate coordination with regional office as poor.


                                           )))))))))))
                                                7
Recent Contacts

A majority of States give high ratings to their most recent contacts with both the central and
regional offices, although ratings are somewhat higher for the latter. States' overall satisfaction
decreases as their ratings of each of the aspects below drops. Table C illustrates the number of
States that are very or somewhat satisfied with each office on specific aspects of their contacts.

                                               Table C
                       Number of States Satisfied With Recent Contacts


  Aspect of Contact                          Central Office          Regional Office
  Ability to reach someone                          47                       47
  Timeliness of assistance                          46                       49
  Responsiveness                                    46                       52
  Helpfulness of assistance                         44                       52
  Accuracy of response                              47                       52
  Extent to which needs met                         47                       52

General Support

States have asked OCSE for different types of support over the past year. Table D below
illustrates the type of help States have asked for and their assessment of how good that help was.

                                               Table D
                                       Quality of Support


                                            States Asking         States Rating Support
  Type of Support                            for Support           Very Good or Good
  Interpreting existing policies                   53                       83%
  Explaining new policies                          53                       70%
  Systems                                          45                       71%
  Implementing new policies                        31                       81%
  Research or demonstration project                27                       81%
  Evaluating program                               19                       68%
  Customer service initiative                      14                       79%

                                          )))))))))))
                                               8
Support Provided On Welfare Reform

States are also pleased with the help they have received from OCSE on welfare reform. Most say
this help has been in the form of policy communications, implementation documents, legislative
guides, workgroups, and other technical assistance. A majority of States (42) rate the help
received on welfare reform so far as very good or good. Some States do, however, mention
further assistance they would like with welfare reform. One-third would like more information on
specific topics such as the Financial Institutions Data Match, or more timely decisions on new
welfare reform regulations in general.

STATES BELIEVE OCSE WORKS WITH THEM AS PARTNERS

States View The Child Support Enforcement Program As More Of A Partnership Than Before

When asked to evaluate the extent to which they believe the Child Support Enforcement program
is a true Federal/State partnership, about half (29) say the program is a partnership most of the
time, 11 say it is a partnership some times, and another 14 say most of the time the program is not
a partnership. In fact, 10 States volunteer this increased emphasis on partnership as a major
strength of the central office. As one State program director says, there is "more spirit of
cooperation" between the Federal office and the States.

States believe the increased emphasis on Federal and State partnership has greatly improved the
Child Support Enforcement Program. Some say OCSE is more willing to listen and talk with
States, while others view the program as more of a joint venture than they used to in the past.

States' assessment of the program as a partnership also influences their overall satisfaction with
OCSE. Most States (60 percent) that are satisfied overall with OCSE believe the program is a
partnership most of the time, while in contrast only 3 percent of States that are dissatisfied overall
believe the same.

Two-thirds of States believe that Federal and State roles in the Child Support Enforcement
Program are adequately defined. The remaining third do not believe these roles are adequately
defined. Most of these States believe the Federal office has an undefined or evolving role in
assisting States; a few suggest that OCSE play a stronger role in the program, such as being a
stronger public advocate for the program and lobbying for more funding. Several States also
recognize the challenge in reconciling a monitoring role with a partnership role. Others mention
that the Federal office needs to understand and appreciate the differences that exist among State
programs; however, they do acknowledge the challenge in recognizing these differences while
trying to develop national policies.

States Particularly Like Recent Collaborative Efforts With OCSE

Most States say recent collaborative efforts with OCSE illustrate the willingness of OCSE to
work more with them as partners. Many mention the formation of welfare reform workgroups,
comprised of Federal and State representatives, as working very well. More specifically, two­


                                          )))))))))))
                                               9
thirds volunteer that the collaborative process used to develop the new incentive funding rules
was a good one, and another quarter volunteer that the process was also positive for the New
Hire Directory. One child support program director says that there was "lots of opportunity to
provide formal and informal feedback" while the incentive funding rules were being developed;
another remarks this process was "HHS at its best, a real partnership."

Additionally, States offer positive feedback about the program's strategic planning process, which
occurred in 1995; almost all have been informed about the plan. Half of the States feel favorably
about the strategic planning process and believe the plan has had a positive effect on their
relationship with the central and regional offices by promoting partnership or improving
communication. Another half of States believe the plan has had a positive effect on their
relationship with their regional office for the same reasons. On the other hand, one-quarter of
States had little or no involvement in the strategic planning process and the remaining quarter of
States either feel negatively or have mixed reactions.

Finally, States rate the biannual Administration for Children and Families (ACF) users group
systems conferences high. Forty-four say these conferences have been very or somewhat helpful.
Some of these States cite the practical knowledge gained at these conferences as particularly
useful.

States Believe The Central Office Provides Strong Program Expertise And Leadership

When asked about the strengths of the central office, the most frequently cited strength is their
program expertise (24 States). In particular, many States cite the program knowledge and
commitment of central office staff as assets. Nearly half of the States (24) volunteer that they
have a good working relationship with the central office, and an equal number of States believe
the central office to be responsive.

Some States also note the strong leadership the central office provides for the program. In
particular, States mention the leadership provided both by Judge Ross and by the central office
staff. Furthermore, a few States say the central office is a strong child support advocate with
Congress.

SOME REGIONAL OFFICES ARE RATED HIGHER THAN OTHERS

Regional Office Ratings Vary Greatly

While overall satisfaction with the regional offices is high, States do rate some regional offices
higher than others. As discussed in our methodology, we created a regional office index, based
on States' ratings of communication, coordination and overall satisfaction with their region (see
Appendix A for a more detailed discussion of this index). This index shows that while all regions
are generally above average, in comparison to each other, three regions are rated low, four are
rated in the middle, and three are rated the high.




                                         )))))))))))
                                              10
States Satisfied With Their Regional Office Appreciate Its Practical Support And Commitment

States which are more satisfied with their regional office value the State-specific support they get
from that office. They believe that regional staff are very committed to the success of their State
program. Several States mention that regional staff have greater sensitivity to the complexities of
the State than does the central office. In fact, 24 States report that a main strength of their
regional office is their commitment to or understanding of the State’s program. As one
respondent says, the regional office has an "understanding of States' situations and knows States'
quirks." Other strengths cited include helpfulness (18), technical knowledge (13) and good
communication (13). A few States report that despite some weaknesses in the regional office, the
staff person assigned to their State is strong.

States Less Satisfied With Their Regional Office Do Not Like The Lack Of Communication
And Support

States which are not as satisfied with their regional office say they receive limited support from
their region, and that communication and coordination between them are weak. Other
weaknesses of the regional offices States mention include a lack of staffing resources and
inadequate program expertise. States also say weaker regional offices do not provide adequate
leadership or guidance.

STATES OFFER SPECIFIC SUGGESTIONS FOR IMPROVING THEIR
RELATIONSHIP WITH OCSE

Improve The Timeliness Of Communication

Many States believe that OCSE is not always timely in its communication. This is the most
common problem States have. Thirty-six States are dissatisfied with either the timeliness of
responses or with the timeliness of getting new program regulations from OCSE; nine States are
dissatisfied with both. While most States would like more timely regulations in general, a few do
cite specific examples of regulations or information and guidance they believe have not been
timely, including specifications for systems requirements, New Hire Directory, and the Uniform
Interstate Family Support Act. Additionally, several States believe regulations have not been
timely so far for the Federal Case Registry, which has an implementation deadline of October
1998.

Concerns about timeliness lower States' overall satisfaction with the central office in particular.
Six of the seven States who are dissatisfied overall with the central office believe regulations are
not timely, while less than half of the States who are satisfied overall think this is a problem.

Strengthen The Regional Office Role To Give States Stronger Program Support

Some States raise concerns about the regional offices. Some States (15) cite the regional office’s
lack of authority, as illustrated in one respondent's remark that the regional office "has no real
authority and can't give us definite answers." These States specifically offer this as a main


                                          )))))))))))
                                               11
weakness of the regional office. Often, States say, regional offices cannot give definitive answers
because they have to check with the central office first. A few States bypass the region
altogether, saying that it is faster to go directly to the central office rather than involve an
intermediary.

Additionally, a few States (4) also believe that regional offices lack a clearly defined role in the
Child Support Enforcement Program. Says one respondent, "I have no idea what regional staff
does." Some note that regional OCSE staffs are located within the regional ACF and report to
ACF’s regional administrator; these States therefore feel that no clear chain of command exists
between all players in the Child Support Enforcement Program. Furthermore, according to
several States, regional offices are sometimes left out of the loop, thus decreasing their
effectiveness in helping the States. In fact, several States say they get program information (e.g.,
updates on new initiatives) before their regional office does. In such instances, these States say
regional staff are not knowledgeable and are unable to give support in a timely manner.

A few States (6) also believe that the relationship between the central and regional offices is not
as good as it should be. These States believe this weakness can adversely affect program
operation. For example, some States receive conflicting information from the two offices,
resulting in uncertainty about program policy.

In order to develop a clearer and more useful role for the regional office, some States offer
suggestions for the types of support regional offices could provide that would be especially
helpful. They think that regional offices should develop specialists in the areas of technical
assistance and program implementation. Some States mention that central office specialists often
do not understand the intricacies of their particular State, and believe that regional staff may
understand States better. A few States mention that regional staff could compile "best practices"
of States in the region more efficiently than the current practice of each State reporting to the
central office.

Provide More Systems Support and Training

Some States would like more systems support from OCSE. In particular, they express several
concerns related to systems. Twenty-six States indicate some dissatisfaction with the timeliness
of systems regulations; they believe they did not receive sufficient information in time to meet
deadlines for new systems requirements. Furthermore, 10 States rate the recent help they have
received with their management information systems as being average, poor, or very poor, and
one-third of the 38 States with recent on-site technical assistance rate this assistance as average,
poor or very poor. Fifteen States volunteer that they would like either more or better systems
support, specifically more on-site technical assistance, more detailed guidance, and better
technical expertise.

Seventeen States indicate that they would also like more training from OCSE. In particular, some
States mention training on the Internet, self-audit, and legal issues. Others say they would like
more training in general, while a few mention they would like OCSE to develop training materials
that they can use to train State program staff.


                                          )))))))))))
                                               12
Improve Communication To States Further Away From The Central Office

Some States also believe that distance from the central office can be a barrier to communication.
"The further away you get from central office," remarks one child support program director, "the
more problems you have with respect to getting information." The six States that are dissatisfied
with the extent to which their communication needs have been met in recent OCSE contacts are
all at least 350 miles from central office; four are more than 1,000 miles from central office.
States that are furthest away from the central office are also more likely to be dissatisfied with
their ability to reach someone in central office and the timeliness of assistance they receive. Some
States also find that distance interferes with in-person communication. As another director from
the West Coast says, "We don't see our Federal partners as much as New England States do."

Furthermore, seven States volunteer that they have difficulty arranging out of State travel. They
believe such restrictions not only impede communication with central office, but also hinder State
participation in conferences and workgroups. Says one respondent, "It is very useful to attend
conferences, but out of State travel is just not possible given the State's political climate."

Provide More Practical Support

Eighteen States say OCSE should provide more practical support to the States, including more
specific guidance on how to implement regulations. Most of these mention that the central office
in particular lacks a practical understanding of how the program works and do not understand the
problems States face. Others say they want more detailed, practical advice on how to implement
new initiatives and policy changes. Some examples of where States would like specific, practical
advice are with implementing welfare reform and interstate compacts.

These concerns impact both States' overall satisfaction and their sense of partnership with OCSE.
States who want more practical support are less likely than other States to be satisfied overall
with the central office. Similarly, States who say OCSE should provide more practical support
are less likely to believe the program is a Federal/State partnership most of the time.

Enhance OCSE Appreciation Of State Problems With New Child Support Initiatives

Some States illustrate their concern with OCSE's lack of practical support by citing difficulties
that they have faced in implementing the Financial Institutions Data Match, Administrative Offset,
and other administrative processes in general. Five States volunteer that original regulations for
the Financial Institutions Data Match were burdensome to implement. Says one child support
program director, "We need help fighting with the banks for Financial Data Match. It should have
been fought at the Federal level instead of States having to fight bank by bank." Nine States
express problems with Administrative Offset, and most States say much of the blame for these
problems was not with OCSE. They do say implementation of the initiative was rushed. Says
another director who has struggled with the initiative, “More piloting is needed.” Finally, 5 States
express concern over other administrative processes and State due process requirements. In some
cases, the concerns reflect resistant State legislatures or judiciaries. In other cases, the concern is
wider in scope. “Pushing administrative process in order to speed things up,” says one


                                           )))))))))))
                                                13
respondent, “puts enormous power in the hands of people who don’t know what they are doing.
It will lead to serious legal issues in the future.”

Continue To Improve The Audit Process

States have some concerns about their past audits, although they do recognize that a new process
will shortly be implemented and are optimistic that this new process will resolve their concerns.
Seven States believe that their most recent audit was not done appropriately and 14 say it was not
useful. Some of these States say that the audit focused too much on details rather than take a
broader perspective and did not provide them with useful feedback on how to improve their
program.

States with audit concerns are more likely to be in some regions than in others. At least half of
the States in three regions say their most recent audit was inappropriately conducted and/or was
not useful, while no State in three other regions had such concerns.

States offer various suggestions for improving OCSE audits. These range from making the audits
more timely and relevant to making them more outcome-based. Some States believe that audits
should be conducted more consistently throughout the country, and others say they should include
some component of self-assessment.

Make The Annual Report to Congress More Timely

States also report dissatisfaction with the timeliness of the Child Support Enforcement Annual
Report to Congress. Forty-three States say the report is not timely and say the report would be
more useful if it were more timely. Some States also express concern about the accuracy of the
data in the report, with 18 States finding it to be inaccurate. Beyond improving the timeliness and
accuracy of the report, 9 States suggest a more narrow focus, and 8 States request more
explanation of the data contained in the report.

CONCLUSION

Overall, this report shows that States give OCSE high marks for its performance, particularly in
recent years. But opportunities to improve remain, and the office should consider the suggestions
cited by States to further improve its performance. By adopting a philosophy of customer service,
OCSE has not only enhanced its support to the States, but also enriched the program as a whole.

COMMENTS

We received comments on the draft report from the Administration for Children and Families
(ACF) and the Assistant Secretary for Management and Budget (ASMB). The ACF believes the
States’ suggestions are pertinent and noted some of its efforts to work with the States to address
them. Some parts of the report were modified in response to ASMB’s technical comments.

The full comments are presented in Appendix B.


                                         )))))))))))
                                              14
                                 APPENDIX A

                                 REGIONAL OFFICE INDEX

The regional office index is based on the scores achieved by each region from all of its States on
the following three variables:

       (1) mean of States’ overall satisfaction with regional office
       (2) mean of States’ rating of communication with regional office
       (3) mean of States’ rating of coordination with regional office

Mean scores on each variable could range from 1 to 4, with 4 being the highest score and 1 being
the lowest.


(1)    Overall Satisfaction With Regional Office

       The overall satisfaction score was based on States’ overall satisfaction with the regional
       Office of Child Support Enforcement. We scored each State’s level of satisfaction using
       the following system:

                       Rating                                Satisfaction Score

                       Very Satisfied                                4
                       Somewhat Satisfied                            3
                       Somewhat Dissatisfied                         2
                       Very Dissatisfied                             1


(2)    Communication With Regional Office

       The communication score was based States’ rating of communication with the regional
       office. We scored each State’s rating using the following system:

                       Rating                                Communication Score

                       Very Good                                     4
                       Good                                          3
                       Average                                       2
                       Poor                                          1




                                         )))))))))))
                                             A-1
(3)    Coordination With Regional Office

       The coordination score was based on States’ rating of coordination with the regional
       office. We scored each State’s rating using the following system:

              Rating                                Coordination Score

              Very Good                                    4
              Good                                         3
              Average                                      2
              Poor                                         1


After scoring the regions on each of the three variables, we added the three scores together to
give a total score for each region. Scores ranged from 8.25 to 11.15, with a mean score of 10.13.
We then assigned the 10 regions into the following three groups based on their total score:

              Group          # Of Regions In Group         Range of Scores

              Low                    3                     8 - 9.5
              Middle                 4                     9.6 - 10.5
              High                   3                     10.6 - 12




                                         )))))))))))
                                             A-2
                                 APPENDIX B

In this appendix, we present in full the comments from the Administration for Children and
Families and the Assistant Secretary for Management and Budget.




                                              B - 1

B - 2

B - 3

B - 4

